APPENDIX A

USCA4 Appeal: 20-1068

Doc: 6

Filed: 08/24/2020

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1068

RANDY T. 3THOMAS,
Plaintiff - Appellant,
v.
STEVE STANSON, Supervisor; MRS. JARMON, (Retired), Head of the Risk Dept.,
Defendants - Appellees,
and
PETERSBURG UTILITY LINES WATER DEPARTMENT; KIMBERLY
ROBERTSON, Dept, of Human Resources; ANTFIONY WILLIAMS, Petersburg
City Attorney; JIM REED, In the Fire Dept.; SGT. HALL, On the Police Force,
Defendants.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Henry E. Hudson, Senior District Judge. (3:19-cv-00162-HEH)
Decided: August 24, 2020

Submitted: August 20, 2020

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.

N" \

USCA4 Appeal: 20-1068

Doc: 6

Filed: 08/24/2020

Pg:2of3

Robert T. 3Thomas, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

2

IV X

USCA4 Appeal: 20-1068

Doc: 6

Filed: 08/24/2020

Pg:3of3

PER CURIAM:
Randy 3Thomas appeals the district court’s order dismissing his civil action as to
two unserved Defendants for insufficient service of process.* We have reviewed the record
and find no reversible error. Accordingly, we affirm for the reasons stated by the district
court. 3Thomas v. Petersburg Util. Lines Water Dep’t., No. 3:19-cv-00162-HEH (E.D.
Va. Jan. 2,2020). We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

* The district court dismissed 3Thomas’ action as to the unserved defendants for a
procedural reason that was unrelated to the contents of 3Thomas’ pleadings. Because “no
amendment in the complaint could cure the defects in [3Thomas’] case,” we have
jurisdiction over this appeal. Bing v. Brivo Sys., LLC, 959 F.3d 605, 610 (4th Cir. 2020)
(quoting Domino Sugar Corp. v. Sugar Workers Local Union 392,10 F.3d 1064,1067 (4th
Cir. 1993)).
3

USCA4 Appeal: 20-1068

Filed: 08/24/2020

Doc: 7-1

Pg: 1 of 2

Total Pages:(1 of 5)

FILED: August 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1068
(3:19-cv-OO 162-HEH)
RANDY T. 3THOMAS

-

Plaintiff - Appellant
v.
STEVE STANSON, Supervisor; MRS. JARMON, (Retired), Head of the Risk
Dept.
Defendants - Appellees
and
PETERSBURG UTILITY LINES WATER DEPARTMENT; KIMBERLY
ROBERTSON, Dept, of Human Resources; ANTHONY WILLIAMS, Petersburg
City Attorney; JIM REED, In the Fire Dept.; SGT. HALL, On the Police Force
Defendants

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.

A-3

USCA4 Appeal: 20-1068

Doc: 7-1

Filed: 08/24/2020

Pg:2of2

Total Pages:(2 of 5)

This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

f\ -H

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 1 of 8 PagelD# 126

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
RANDY T. 3THOMAS,
Plaintiff,

)
)
)
)

)

v.
PETERSBURG UTILITY LINES
WATER DEPT., et al.,
Defendants.

Case No. 3:19-cv-00162-HEH

)
)
)
)
)

MEMORANDUM OPINION
(Granting Defendants’ Motion to Dismiss)
This matter is before the Court on Defendants’1—Petersburg Utility Lines Water
Department (“Petersburg Water Dept.”), Kimberly Robertson, Anthony Williams, Jim
Reed, and Sergeant Hall (“Defendants”)—Motion to Dismiss for Failure to State a Claim
(the “Motion”), filed on July 1, 2019 (ECF No. 15). Randy 3Thomas (“Plaintiff’) filed
the Complaint, pro se, on May 29, 2019, alleging that he was wrongfully terminated from
his employment at Petersburg Water Dept. (ECF No. 4). In their Motion, Defendants
contend that Plaintiff fails to state a claim upon which relief can be granted, and that
Petersburg Water Dept, is an improper party. In response, Plaintiff reasserts that he was
wrongfully fired, but provides no further supporting facts. For the reasons stated herein,
Defendants’ Motion will be granted.

i

Defendants Elsie Jarmon and Steve Stanson were not served with process. Because more than
90 days have passed since Plaintiffs filing of the Complaint, the time for service has elapsed as
to these Defendants. Fed. R. Civ. P. 4(m).

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 2 of 8 PagelD# 127

I. FACTS
Plaintiff alleges he sustained a severe injury to his back, requiring a doctor’s care
from January to April 2017 (ECF No. 4 at 7, 9). Plaintiff further alleges that his
constitutional rights “were broken” when he was fired from his job in March 2017 while
under a doctor’s care, in violation of the Family and Medical Leave Act (“FMLA”). (Id.
at 8.) Plaintiff asserts he had “the right documents from F.M.L.A. and [his] doctor” to
qualify for FMLA protections. (Id. at 6.) Plaintiff alleges that he was fired from his job
at Petersburg Water Dept, following a two-to-one vote against him by a “panel board.”
(Id.) Notably, it is unclear from the Complaint whether Plaintiff was allegedly denied
FMLA leave and subsequently fired, or whether he allegedly took leave and was
terminated in retaliation. It is also unclear which of the six named Defendants were on
the board, or if the panel’s meeting directly caused Plaintiffs termination or otherwise
interfered with his FMLA rights.
II. STANDARD OF REVIEW
“A motion to dismiss under Rule 12(b)(6) tests the sufficiency of a complaint;
importantly, it does not resolve contests surrounding the facts, the merits of a claim, or
the applicability of defenses.” Republican Party ofN.C. v. Martin, 980 F.2d 943, 952
(4th Cir. 1992) (citation omitted). The Federal Rules of Civil Procedure “require[] only
‘a short and plain statement of the claim showing that the pleader is entitled to relief,’ in
order to ‘give the defendant fair notice of what the ... claim is and the grounds upon
which it rests.’” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v.
Gibson, 355 U.S. 41, 47 (1957)). A complaint need not assert “detailed factual
2

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 3 of 8 PagelD# 128

allegations,” but must contain “more than labels and conclusions” or a “formulaic
recitation of the elements of a cause of action.” Id. (citations omitted). Thus, the
“[factual allegations must be enough to raise a right to relief above the speculative
level,” to one that is “plausible on its face” rather than merely “conceivable.” Id. at 555,
570.
“A claim has facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Twombly, 550
U.S. at 556). In considering such a motion, a plaintiffs well-pleaded allegations are
taken as true, and the complaint is viewed in the light most favorable to the plaintiff.
T.G. Slater & Son, Inc. v. Donald P. & Patricia A. Brennan, LLC, 385 F.3d 836, 841 (4th
Cir. 2004) (citation omitted). Legal conclusions enjoy no such deference. Iqbal, 556
U.S. at 678.
Additionally, pro se complaints are afforded a liberal construction. Laber v.
Harvey, 438 F.3d 404, 413 n.3 (4th Cir. 2006). The Court, however, need not attempt “to
discern the unexpressed intent of the plaintiff.” Id. Nor does the requirement of liberal
construction excuse a clear failure in the pleading to allege a federally cognizable claim.
See Weller v. Dep'tofSoc. Servs., 901 F.2d 387, 390-91 (4th Cir. 1990). As the Fourth
Circuit articulated in Beaudett v. City ofHampton, “[tjhough [pro se] litigants cannot, of
course, be expected to frame legal issues with the clarity and precision ideally evident in
the work of those trained in law, neither can district courts be required to conjure up and
decide issues never fairly presented to them. 775 F.2d 1274, 1276 (4th Cir. 1985).
3

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 4 of 8 PagelD# 129

III. DISCUSSION
In their Motion, Defendants raise two objections to Plaintiffs Complaint. First,
Defendants claim that Petersburg Water Dept, is not a proper defendant. Second, even if
all of the parties are properly named, Defendants assert that Plaintiff does not allege
sufficient facts to state a claim under the FMLA.
Petersburg Water Dept, is an improper party because it is a subdivision of the
Petersburg municipality. Under Fed. R. Civ. P. 17(b), state law determines whether a
governmental body may be sued in federal court. “In Virginia, departments of municipal
governments are not capable of being sued in their own names.” Allmond v. Sec. 8 Dep't,
No. 03-894-A, 2003 U.S. Dist. LEXIS 28728, at *5 (E.D. Va. Sept. 25, 2003); see also
Hearn v. Hudson, 549 F. Supp. 949, 952 n.l (W.D. Va. 1982) (“The capacity of a
governmental unit to be sued in federal court is to be determined by reference to state
law.”). This rule has been applied to a diverse range of municipal departments in
Virginia. See, e.g., Allmond, 2003 U.S. Dist. LEXIS 28728, at *5-6 (Department of
Housing and Community Development); Davis v. City ofPortsmouth, 579 F. Supp. 1205,
1210 (E.D. Va. 1983) (Department of Economic Development, and Planning
Commission); Hearn, 549 F. Supp. at 952 n.l (Police Department).
Like the departments at issue in Allmond, Davis, and Hearn, Petersburg Water
Dept, is, by all measures, not an entity separate from the City of Petersburg. Thus,
Petersburg Water Dept, cannot be sued in its own name and is an improper party named
in Plaintiffs Complaint.

4

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 5 of 8 PagelD# 130

Notably, in Virginia, “[e]very locality may... be sued in its own name in relation
to all matters connected with its duties.” Va. Code Ann. § 15.2-1404. While the
Complaint incorrectly names Petersburg Water Dept., it is plausible that Plaintiff named
the additional Defendant, Anthony Williams, Petersburg City Attorney, with the intent of
serving process on the City of Petersburg. Va. Code Ann. § 8.01-300. This does not,
however, cure the original error of naming Petersburg Water Dept, as a party, particularly
because Plaintiff has failed to name the City of Petersburg as a Defendant.
Furthermore, Plaintiff does not allege facts sufficient to support a cognizable claim
under the FMLA against Defendants. The FMLA creates two types of claims—
interference and retaliation. 29 U.S.C. § 2615(a)(l)-(a)(2); see Waag v. Sotera Def.
Sols., Inc., 857 F.3d 179, 186 (4th Cir. 2017); Yashenko v. Harrah's NC Casino Co., 446
F.3d 541, 546 (4th Cir. 2006). The FMLA allows employees to take twelve workweeks
of leave during a twelve-month period “[bjecause of a serious health condition that
makes the employee unable to perform the functions of the position of such employee.”
§ 2612(a)(1)(D).
However, the Complaint fails to allege sufficient facts of how Plaintiffs rights
were infringed by the various Defendants. It is unclear which claim under the FMLA—
interference or retaliation—Plaintiff is alleging a violation of his rights. However, even
liberally construing the Complaint, the Court cannot reach facial plausibility for either
type of claim.
First, in order to prevail on an FMLA interference claim, Plaintiff must establish
that “(1) he [was] entitled to an FMLA benefit; (2) his employer interfered with the

5

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 6 of 8 Page!D# 131

provision of that benefit; and (3) that interference caused harm.” Adams v. Anne Arundel
Cty. Pub. Sch., 789 F.3d 422,427 (4th Cir. 2015); see also Crawford v. Newport News
Indus. Corp., No. 4:14cvl30,2018 U.S. Dist. LEXIS 98939, at *83 (E.D. Va. June 11,
2018); Ainsworth v. Loudon Cty. Sch. Bd., 851 F. Supp. 2d 963, 975 (E.D. Va. 2012).
Defendants argue that Plaintiffs descriptions of his alleged injury and dismissal are too
vague to establish these elements.
Reading the Complaint in the light most favorable to Plaintiff, it is plausible
Plaintiff was at least entitled to an FMLA benefit. Under the statute, conditions requiring
“continuing treatment by a healthcare provider” are sufficient for entitlement to the
FMLA benefits. § 2611(11)(B); Osborne v. Suminoe Textile ofAm. Corp., No. 7:13-11TMC-KFM, 2014 U.S. Dist. LEXIS 104700, at *11-15 (D.S.C. June 2, 2014). Plaintiff
alleges he sustained an injury to his back and that he is unable to “do what [he] used
[to].” (ECF No. 4 at 9). The injury was allegedly severe enough to require a doctor’s care
for three months, and Plaintiff allegedly has “the right documents from F.M.L.A. and
[his] doctor.” (Id. at 6-7.)
However, Plaintiff has failed to establish the remaining two elements of an FMLA
interference claim. The Complaint is unclear as to whether Plaintiff notified his
employer of an intent to take leave, actually took or was denied leave, or otherwise had
his FMLA benefits denied or interfered with by his employer, if Plaintiff was indeed
entitled to it. The Complaint also fails to allege sufficient facts as to whether the alleged
harm Plaintiff suffered was caused by any interference with Plaintiffs FMLA benefits by
his employer.

6

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 7 of 8 PagelD# 132

Alternatively, to establish a claim of retaliation under the FMLA, Plaintiff would
have to show the following: “[(1)] that he engaged in protected activity, [(2)] that the
employer took adverse action against him, and [(3)] that the adverse action was causally
connected to the plaintiffs protected activity.” Yashenko, 446 F.3d at 551 (quoting Cline
v. Wal-Mart Stores, Inc., 144 F.3d 294, 301 (4th Cir. 1998)). If the adverse action (here,
Plaintiffs alleged dismissal) occurred in temporal proximity to the protected FMLA
activity, the third element is sufficiently established. Payne v. Fairfax Cty., No.
1:05cvl446 (JCC), 2006 U.S. Dist. LEXIS 79725, at * 13-14 (E.D. Va. Nov. 1, 2006)
(citing Williams v. Cerberonics, Inc., 871 F.2d 452, 457 (4th Cir. 1989)). However, the
facts provided in the Complaint do not establish that Plaintiff took leave or engaged in
other protected activity. Furthermore, Plaintiff fails to allege that his dismissal was
causally connected to any protected actions.
The Court cannot rely on conjecture as to which theory Plaintiff wishes to
pursue—interference or retaliation.2 However, even liberally construing the Complaint,

2 Courts in this Circuit are split as to whether public employees can be sued in their individual
capacity as employers under the FMLA. See Ainsworth, 851 F. Supp. 2d at 972, 974—75
(“[Pjublic employees may be sued in their individual capacities for alleged violations of the
FMLA.”); Miller v. Cty. OfRockingham, No. 5:06cv53, 2007 U.S. Dist. LEXIS 23714, at *14
(W.D. Va. Mar. 30, 2007) (“[T]he Court concludes that the FMLA’s individual liability
provision does not extend to employees of public agencies.”). The courts that have allowed
these suits though have required allegations that these defendants “act directly or indirectly in the
interests of their employer” and have sufficient control over the plaintiffs employment—such as
exercising hiring and firing authority. See, e.g., Ainsworth, 851 F. Supp. 2d at 972, 974.
Notably, under either theory, the facts in the Complaint do not establish what role
Defendants played in Plaintiffs dismissal, which of the named Defendants were directly
responsible for his firing, or how Defendants were otherwise liable for his FMLA claim.
However, because Plaintiff has otherwise failed to state a claim, this Court need not now decide
whether the named individual Defendants here may be subject to suit under the FMLA.
7

Case 3:19-cv-00162-HEH Document 23 Filed 12/12/19 Page 8 of 8 PagelD# 133

neither theory is supported beyond a speculative level. As the Complaint lacks sufficient
factual allegations to assess Plaintiffs FMLA claim, it will be dismissed for failure to
state a claim under Fed R. Civ. P. 12(b)(6).
IV. CONCLUSION
For these reasons, the Motion to Dismiss (ECF No. 15) will be granted, and
Plaintiffs Complaint will be dismissed without prejudice. Plaintiff is free to amplify the
factual and legal bases upon which his claim rests and then refile with this Court.
An appropriate Order will accompany this Memorandum Opinion.

Henry E. Hudson
Senior United States District Judge

PateTiDg»6.
Richmond, Virginia

8

Additional material
from this filing is
available in the
Clerk's Office.

